                                                EMPLOYMENT AND TRAINING
                                                ADMINISTRATION


Office of Inspector General—Office of Audit 





                                                PERFORMANCE AUDIT OF MINACT, INC.,
                                                JOB CORPS CENTER OPERATOR




                                                                 Date Issued:    August 10, 2010
                                                              Report Number:    26-10-004-01-370
U.S. Department of Labor                                   August 2010
Office of Inspector General
Office of Audit                                            PERFORMANCE AUDIT OF MINACT, INC., JOB
                                                           CORPS CENTER OPERATOR

BRIEFLY…                                                   WHAT OIG FOUND
Highlights of Report Number 26-10-004-01-370, to the       MINACT did not always ensure compliance with Job
Assistant Secretary for Employment and Training.           Corps requirements for managing and reporting
                                                           financial activity in each of the two areas reviewed —
WHY READ THE REPORT                                        non-personnel and personnel expenses. MINACT and
This report discusses MINACT, Incorporated (MINACT)        Excelsior Springs lacked sufficient oversight over the
control weaknesses related to managing and reporting       center’s non-personnel expenses. As a result, the
financial activity and managing center safety and health   center could not demonstrate goods and services for
programs. MINACT is under contract with the Office of      non-personnel expense transactions tested were
Job Corps (Job Corps) to operate 10 Job Corps centers      always properly approved, received, or processed in
for the U.S. Department of Labor (DOL).                    accordance with the Federal Acquisition Regulation,
                                                           center’s sub-contractor agreements, Job Corps
WHY OIG CONDUCTED THE AUDIT                                requirements, and MINACT’s standard operating
Our audit objectives were to answer the following          procedures. As a result, we questioned costs totaling
questions:                                                 $203,921 because the center could not show payments
                                                           for services were always appropriate. Required support
1. 	 Did MINACT ensure compliance with Job Corps           such as detailed invoices, time records, and copies of
     requirements for managing and reporting financial     advertisements were not provided.
     activity?
                                                           MINACT also did not ensure compliance with Job Corps
2. 	 Did MINACT ensure compliance with Job Corps           requirements for managing center safety and health
     requirements for managing center safety and health    programs in each of the three areas we reviewed —
     programs?                                             student misconduct, and safety and health inspections
                                                           and committee meetings. Specifically, Excelsior Springs
Our audit work was conducted at MINACT                     did not always convene fact finding boards as required
headquarters in Jackson, Mississippi; and Excelsior        for students suspected misconduct, such as physical
Springs Job Corps Center (Excelsior Springs) in            assault with intent to cause bodily harm to a student
Excelsior Springs, Missouri.                               and threat of assault.

READ THE FULL REPORT                                       In addition, MINACT was not able to demonstrate all
To view the report, including the scope, methodology,      required safety and health inspections and committee
and full agency response, go to:                           meetings were conducted. For example, Excelsior
                                                           Springs’ records indicated that the center did not
http://www.oig.dol.gov/public/reports/oa/2010/ 26-10-      conduct 6 percent of its weekly inspections, 15 percent
004-01-370.pdf                                             of its monthly inspections, and 83 percent of its
                                                           quarterly inspections.

                                                           WHAT OIG RECOMMENDED
                                                           We made seven recommendations to the Assistant
                                                           Secretary for Employment and Training (ETA). In
                                                           summary, we recommended Job Corps direct MINACT
                                                           to improve corporate-level controls and monitoring over
                                                           all centers for financial managing and reporting, student
                                                           misconduct, and center health and safety requirements;
                                                           identify and correct non-compliance with Job Corps
                                                           requirements; improve effectiveness of training and
                                                           oversight to staff; and provide documentation to support
                                                           questioned costs identified during our audit.

                                                           The Assistant Secretary for ETA concurred with our
                                                           recommendations and stated Job Corps will instruct
                                                           MINACT to improve its controls and will determine the
                                                           extent of any reimbursements resulting from
                                                           unsupported questioned costs.
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                Performance Audit of MINACT, Inc.
                                     Report No. 26-10-004-01-370
                                  U. S. Department of Labor – Office of Inspector General 



                              MINACT, Incorporated 

                              Jackson, Mississippi 





                        Excelsior Springs Job Corps Center 

                           Excelsior Springs, Missouri





  Excelsior Springs                                                        MINACT, Inc
  Job Corps Center                                                         Jackson, MS
Excelsior Springs, MO



                                                         Performance Audit of MINACT, Inc.
                                                              Report No. 26-10-004-01-370
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                Performance Audit of MINACT, Inc.
                                     Report No. 26-10-004-01-370
                                                      U. S. Department of Labor – Office of Inspector General 




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1
	

Results In Brief .............................................................................................................. 2
	

Objective 1 — Did MINACT ensure compliance with Job Corps requirements for 

              managing and reporting financial activity? ....................................... 4
	
         MINACT’s non-compliance with Job Corps requirements resulted in 

         questioned costs totaling $203,921. ..................................................................... 4
	
         Finding 1 — MINACT did not always ensure compliance with Job Corps 

                    requirements for managing and reporting financial activity for 

                    each of the two areas reviewed — non-personnel and 

                    personnel expenses.......................................................................... 4
	

Objective 2 — Did MINACT ensure compliance with Job Corps requirements for 

              center safety and health programs?................................................. 10
	
         MINACT could not provide adequate assurance its safety and health 

         programs effectively protected Job Corps students............................................ 10
	
         Finding 2 — MINACT did not always ensure compliance with Job Corps 

                    requirements for managing center safety and health programs 

                    for each of the three areas reviewed — student misconduct, 

                    and safety and health inspections and committee meetings. .......... 10
	

Recommendations ...................................................................................................... 15
	

Appendices
         Appendix A Background ..................................................................................... 19
	
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 21
	
         Appendix C Acronyms and Abbreviations .......................................................... 25
	
         Appendix D ETA’s Response to Draft Report ..................................................... 27
	
         Appendix E MINACT’s Response to Draft Report .............................................. 39
	
         Appendix F Acknowledgements ......................................................................... 45
	




                                                                                     Performance Audit of MINACT, Inc.
                                                                                          Report No. 26-10-004-01-370
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                Performance Audit of MINACT, Inc.
                                     Report No. 26-10-004-01-370
                                                 U. S. Department of Labor – Office of Inspector General 



U.S. Department of Labor                              Office of Inspector General
                                                      Washington, D.C. 20210


August 10, 2010


                                Assistant Inspector General’s Report


Jane Oates
Assistant Secretary for
Employment and Training
200 Constitution Avenue, N.W.
Washington, D.C. 20210

The Office of Inspector General (OIG) conducted a performance audit of MINACT,
Incorporated (MINACT). MINACT is under contract with the Office of Job Corps (Job
Corps) to operate 10 Job Corps centers for the Department of Labor (DOL). 1 Job Corps
is an office in DOL’s Employment and Training Administration (ETA). Job Corps
requires its center operators to establish procedures and conduct periodic center audits
to ensure integrity, accountability, and prevention of fraud and program abuse.

Our audit objectives were to answer the following questions:

    (1) Did MINACT ensure compliance with Job Corps requirements for managing and
        reporting financial activity?

    (2) Did MINACT ensure compliance with Job Corps requirements for managing
        center safety and health programs?

This report reflects the audit work conducted at MINACT’s corporate headquarters and
one of its centers — Excelsior Springs Job Corps Center (Excelsior Springs). We
reviewed center financial and safety and health data for calendar year 2009,
January 1, 2009, through December 31, 2009 (CY 2009).

To assess MINACT’s internal controls over center financial activity and safety and
health programs, we interviewed key corporate and center staff; reviewed applicable
Job Corps requirements, including Job Corps Policy and Requirements Handbook
(PRH), Federal regulations, contract provisions, and MINACT’s standard operating
procedures (SOP); analyzed Job Corps and MINACT monitoring reports; and performed
walk-throughs of select transactions. 2 We used non-statistical (i.e., judgmental)
sampling, which was based on a number of factors including known deficiencies and the
nature of certain transactions (e.g., high dollar value, susceptibility to theft or

1
  MINACT acquired the contract to operate a 10th center, the Phoenix Job Corps center, in 2010. During calendar year 

2009, MINACT operated nine centers. 

2
  MINACT’s SOP include corporate and center policies, such as center standard operating procedures. 


                                                                                Performance Audit of MINACT, Inc.
                                                          1                          Report No. 26-10-004-01-370
                                                    U. S. Department of Labor – Office of Inspector General 



manipulation, potential safety and health risks), to select the transactions tested at
Excelsior Springs.

To test financial activity, we analyzed Excelsior Springs’ CY 2009 expenses and
judgmentally selected and tested 127 transactions totaling $708,463, or 18.1 percent, of
Excelsior Springs’ $3.9 million non-personnel expenses reported for CY 2009. For
personnel expenses, we judgmentally selected and tested payroll transactions covering
40 or 15.0 percent, of the center’s 267 employees. We also reconciled Excelsior
Springs’ reported reimbursable expenses to Job Corps to the center’s Public Voucher
and financial records to ensure compliance with Job Corps’ PRH.

To test safety and health, we judgmentally selected and tested 107 potential student
misconduct incidents to determine whether the center convened required Fact Finding
Boards (FFB) and took appropriate disciplinary actions, including termination. In
addition, we reviewed available documentation to determine whether Excelsior Springs
conducted its required safety and health inspections and committee meetings. We also
conducted a physical review of the center’s facilities to identify safety and health
hazards.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

MINACT did not always ensure compliance with Job Corps requirements for managing
and reporting financial activity in each of the two areas reviewed — non-personnel and
personnel expenses. MINACT and Excelsior Springs lacked sufficient oversight over the
center’s non-personnel expenses for CY 2009. As a result, the center could not
demonstrate goods and services related to 72 of 127 non-personnel expense
transactions tested were properly approved, received, or processed in accordance with
the Federal Acquisition Regulation (FAR), center’s sub-contractor agreements, Job
Corps’ PRH, or MINACT’s SOP. For 62 transactions, we questioned costs totaling
$203,921 because Excelsior Springs could not show payments for dental, medical,
information technology (IT) support, and advertising services were appropriate.
Required support such as detailed invoices, time records, and copies of advertisements
were not provided. For 7 transactions totaling $107,481, the center could not
demonstrate it received the best value because bids were not solicited as required by
the FAR and MINACT’s SOP. 3



3
    Four of the 7 were included in the 62 questioned costs transactions.

                                                                           Performance Audit of MINACT, Inc.
                                                             2                  Report No. 26-10-004-01-370
                                      U. S. Department of Labor – Office of Inspector General 



We also found control deficiencies (e.g., no receipts, no record of equipment in
inventory) related to 7 non-personnel transactions totaling $21,883; however, these
control deficiencies did not result in questioned costs because the center was able to
demonstrate the goods and services were received. In addition, MINACT lacked
supervisory review over payroll transactions; including pay for hours worked and
termination payouts. This increased the risk that inappropriate payroll expenses could
be incurred, not detected, and charged to Job Corps.

MINACT also did not ensure compliance with Job Corps requirements for managing
center safety and health programs in each of the three areas we reviewed — student
misconduct, and safety and health inspections and committee meetings. Specifically,
Excelsior Springs did not always convene FFBs as required for students suspected of
Level I and II misconduct infractions, such as physical assault with intent to cause bodily
harm to a student, threat of assault, fighting, and sexual harassment. Of the 107
incidents we judgmentally selected, FFBs were not convened to address 12 potential
Level I and II infractions. As a result, MINACT could not demonstrate appropriate
disciplinary action (including termination) was taken and potentially dangerous students
may have been allowed to remain on center. Excelsior Springs’ data in Job Corps’
Center Information System (CIS) for Level I and II infractions was also unreliable
because incidents involving 29 Level II and III infractions were incorrectly assessed and
reported by center staff as higher level infractions.

In addition, MINACT was not able to demonstrate that all required safety and health
inspections and committee meetings were conducted. Excelsior Springs’ records
indicated that the center did not conduct 6 percent of its weekly inspections, 15 percent
of its monthly inspections, and 83 percent of its quarterly inspections. Excelsior Springs
also did not conduct 1 of 12 required monthly safety and health committee meetings. By
not conducting its required inspections and meetings, Excelsior Springs exposed
students and staff to potential safety and health hazards that could have been identified
and abated.

These conditions occurred because corporate and center management did not place
sufficient emphasis on ensuring compliance with Job Corps requirements, including the
FAR, center sub-contractor agreements, Job Corps’ PRH and MINACT’s SOP.
Specifically, MINACT staff lacked adequate knowledge of the applicable requirements
and MINACT’s oversight did not always include regular monitoring to ensure
compliance.

In response to our draft report, the Assistant Secretary for ETA concurred with our
recommendations and stated Job Corps will instruct MINACT to improve corporate and
center-level controls over financial management and reporting and safety and health
programs. Additionally, Job Corps will determine the extent of any reimbursements
owed by MINACT resulting from unsupported questioned costs.

MINACT acknowledged in its response to our draft report that deficiencies occurred in
each of the areas we reviewed and agreed to improve controls over each of these


                                                             Performance Audit of MINACT, Inc.
                                             3                    Report No. 26-10-004-01-370
                                                U. S. Department of Labor – Office of Inspector General 



areas. However, MINACT disagreed with the $203,921 in questioned costs and some of
the specific deficiencies we identified. Nothing MINACT provided us caused us to
change our conclusions.

Recommendations

In summary, we recommend the Assistant Secretary for Employment and Training
direct Job Corps to require MINACT provide the necessary documentation to show
Excelsior Springs received all of the services for the $203,921 in questioned costs, or
reimburse the amounts it is not able to support. We also recommend the Assistant
Secretary direct Job Corps require MINACT to improve corporate-level controls and
monitoring over its centers to comply with Federal and Job Corps requirements
governing the areas of non-personnel expenses, personnel expenses, student
misconduct, and safety and health inspections and committee meetings.

RESULTS AND FINDINGS

Objective 1 — Did MINACT ensure compliance with Job Corps requirements for
              managing and reporting financial activity?

        MINACT’s non-compliance with Job Corps requirements resulted in questioned
        costs totaling $203,921.

        Finding 1 — MINACT did not always ensure compliance with Job Corps
                    requirements for managing and reporting financial activity for
                    each of the two areas reviewed — non-personnel and
                    personnel expenses.

MINACT’s controls over non-personnel and personnel expenses did not always ensure
compliance with Job Corps requirements for managing and reporting financial activity. 4
MINACT could not demonstrate goods and services for 72 of 127 non-personnel
expense transactions judgmentally selected and tested at Excelsior Springs were
properly approved, received, or processed in accordance with the FAR, center
sub-contractor agreements, Job Corps’ PRH, and MINACT’s SOP during CY 2009. 5 In
addition, MINACT lacked supervisory review over personnel expense transactions at
Excelsior Springs, including pay for hours worked and termination payouts. This
occurred because center staff lacked adequate knowledge of the FAR, center
sub-contractor agreements, Job Corps’ PRH, and MINACT’s SOP; and MINACT’s
corporate and center oversight did not include regular monitoring to ensure compliance.
As a result, our testing disclosed questioned costs related to 62 transactions totaling
$203,921 and non-compliance with the FAR and MINACT’s SOP bid requirements for 7
transactions representing payments totaling $107,481. 6 We also found control
deficiencies related to 7 non-personnel transactions totaling $21,883; however, these

4
  Our conclusion was based on audit testing described in the scope and methodology in Appendix B. 

5
  See Table 1, page 8 for summary of exceptions related to non-personnel expenses. 

6
  Of these 7 transactions, 4 were also included in the 62 questioned cost transactions. 


                                                                            Performance Audit of MINACT, Inc.
                                                        4                        Report No. 26-10-004-01-370
                                                 U. S. Department of Labor – Office of Inspector General 



control deficiencies did not result in questioned costs because the center demonstrated
the goods and services were received.

Non-personnel Expenses Lacked Assurance Goods and Services Were Properly
Approved, Received, or Processed

MINACT could not demonstrate Excelsior Springs received all goods and services
charged to Job Corps during CY 2009. Standards for Internal Control in the Federal
Government state all transactions and other significant events need to be clearly
documented, and documentation should be readily available. 7 The FAR provides that
fees for services rendered are allowable only when supported by evidence of the nature
and scope of the service furnished. Evidence necessary to determine that work
performed is proper and does not violate law or regulation includes:

     •	 Invoices or billings that provide sufficient detail and support to authorize
        payments such as to the time expended, nature of the actual services provided,
        and dates supplies were delivered or services performed.

     •	 Details of all agreements (e.g., work requirements, rate of compensation) with
        the individuals or organizations providing the services and details of actual
        services performed. 8

The FAR further requires the maintenance of records, including supporting
documentation, to demonstrate claimed costs have been incurred, are allocable to the
contract, and comply with applicable cost principles in the FAR and agency
supplements. The FAR also authorizes Job Corps to disallow all or part of a claimed
cost that is inadequately supported. 9

We judgmentally sampled 127 transactions totaling $708,463, or 18.1 percent, of
Excelsior Springs’ $3.9 million 10 non-personnel expenses reported for CY 2009. 11
Based on our testing, the center was unable to demonstrate for 72 of the 127
transactions that goods and services were properly approved, received, or processed in
accordance with the FAR, center sub-contractor agreements, Job Corps’ PRH, 12 and
MINACT’s SOP.

    Questioned Costs for 62 Transactions Totaling $203,921

For 62 transactions, we questioned costs totaling $203,921 because Excelsior Springs
could not demonstrate payments for services were appropriate. Required support such

7
  United States Government Accountability Office (GAO), GAO/AIMD-00-21.3.1 (Washington, D.C.: November 1999). 

8
  FAR 31.205-33(f). 

9
  FAR 31.201-2(d). 

10
   Actual non-personnel expenses totaled $3,917,290.96. 

11
   Non-personnel expenses include purchases of goods and services, such as supplies, equipment, construction, and 

contracted medical services. 

12
   Job Corps’ PRH Chapter 5.6, R1 requires center operators to follow all applicable procurement regulations including 

the FAR.
	

                                                                               Performance Audit of MINACT, Inc.
                                                          5                         Report No. 26-10-004-01-370
                                                    U. S. Department of Labor – Office of Inspector General 



as detailed invoices, time records, and copies of advertisements were not provided. For
example:

       •	 Excelsior Springs could not show it received dental and medical services for all
          hours charged to Job Corps as required by the FAR for payments totaling
          $186,766 to 4 sub-contractors: a dentist (12 transactions, $84,960), a dental
          hygienist (12 transactions, $19,879), a mental health consultant (12 transactions,
          $75,387), and a physician (4 transactions, $6,540). The center did receive some
          services from these individuals. However, the center could not show the hours
          they actually worked because detailed time records supporting the hours billed
          and actual services performed were not obtained, reviewed, and approved prior
          to payment. Excelsior Springs’ staff told us they did not obtain detailed time
          records because they were not aware such support was required. In addition to
          the FAR, the center’s sub-contractor agreements with the dental hygienist and
          physician required detailed billings and time records to support charges for their
          services. 13 The center began obtaining detailed time records for the physician
          sub-contractor during CY 2009. However, this occurred due to center concerns
          with the hours this individual worked.

            In response to our audit, the center provided monthly timesheets, including
            specific hours worked, to support the CY 2009 billings for the dentist, dental
            hygienist, and mental health consultant. However, we did not accept the
            timesheets as support because the timesheets were submitted to the center in
            March 2010 and were not used by the center to validate the CY 2009 billings
            prior to payment. Furthermore, the dentist and dental hygienist acknowledged
            their timesheets were created by the center in March 2010 with estimated times
            entered to support the hours worked and backdated between 3 and 15 months.
            In addition, the timesheets for all three of these sub-contractors showed $8,781
            was inappropriately charged to the center for 180.75 hours of lunch breaks
            during CY 2009. Excelsior Springs’ staff and the sub-contractors said they
            believed it was acceptable to charge Job Corps for their lunch breaks when taken
            on center.

       •	 Excelsior Springs could not show it received IT support services for hours
          charged to Job Corps totaling $12,255 (19 transactions) for one vendor. The
          center procured these services without a contractual agreement, and the invoices
          did not describe the vendor’s specific duties, actual services provided, and
          deliverable work products.

       •	 Excelsior Springs could not show that job vacancy and student recruitment
          advertisements costing $4,900 (3 transactions and invoices) were placed in a
          local trade publication. The center paid a total of $10,500 for 15 advertisements
          ($700 each) to be published on dates specified on the invoices, but was unable
          to show these advertisements were actually published. In response to our audit,
          MINACT obtained revised invoices and publication dates from the vendor in April
13
     Excelsior Springs’ subcontractor agreements with the dental hygienist (July 1, 2003) and physician (June 18, 2005).

                                                                                 Performance Audit of MINACT, Inc.
                                                             6                        Report No. 26-10-004-01-370
                                                 U. S. Department of Labor – Office of Inspector General 



         2010, between 10 and 16 months after these expenses were charged to Job
         Corps, as well as copies of advertisements that supported some of the revised
         dates. We considered eight advertisements acceptable because they matched
         the revised publication dates and job vacancies at the center, when applicable.
         The center was unable show advertisements were placed for 6 of the revised
         publication dates and 1 advertisement was placed almost 1 month after the job
         vacancy closed. As such, we questioned the costs for 7 advertisements, or
         $4,900 (7 x $700).

     Non-compliance with Bid Requirements for 7 Transactions Totaling $107,481

For 7 transactions totaling $107,481, Excelsior Springs did not solicit bids or document
approval for sole sourcing from 5 vendors as required by MINACT’s SOP for purchases
of goods and services of $2,500 14 or more and by FAR requirements for purchases over
$3,000 during CY 2009. 15 As such, the center could not show the best value was
received for the purchases. These purchases related to 7 transactions sampled totaling
$107,481 as follows: beverages ($36,306), medical supplies ($21,675), IT support
services ($19,650), computer software ($19,350), and advertising ($10,500). 16 Four of
these transactions, which related to expenses for IT support services and advertising,
were included in the 62 questioned costs transactions described above.

     Other Internal Control Deficiencies for 7 Transactions Totaling $21,883

We also found other control deficiencies related to another 7 transactions totaling
$21,883; however, these control deficiencies did not result in questioned costs because
the center demonstrated that the goods and services were received. For example:

      •	 Reimbursement for staff air travel expenses for 1 transaction totaling $1,959 was
         not supported by original receipts. The center reimbursed staff using boarding
         passes, even though MINACT’s SOP stated that boarding passes were not
         sufficient evidence to support airfare charges. 17 However, Excelsior Springs was
         able to verify the travel occurred as charged using other documentation.

      •	 Leased equipment related to 2 transactions totaling $9,614 was not included in
         the center’s inventory even though it was required by Job Corps’ PRH. 18
         However, the center was able to verify these items were in its possession.

Overall, we found Excelsior Springs lacked sufficient internal controls over its non-
personnel expenses for CY 2009 as summarized in Table 1 below.
14
   Excelsior Springs’ Center Operating Procedures, Competitive Procurement, A and B. 

15
   FAR 13.003 and 13.1. 

16
   The amount of goods and services purchased from 3 of these vendors reflect the aggregate of multiple purchases 

made during CY 2009 – beverages (16), medical supplies (12) and IT support services (23). Since the aggregate of 

the purchases made from these vendors were subject to the bid and sole sourcing requirements, we only counted 

transactions related to each of these vendors once in our count of seven transactions that were not procured through 

competitive bidding as required. 

17
   MINACT’ Travel Policy, D.2. 

18
   Job Corps’ PRH Chapter 5.6, R4.
	

                                                                              Performance Audit of MINACT, Inc.
                                                          7                        Report No. 26-10-004-01-370
                                                    U. S. Department of Labor – Office of Inspector General 




    Table 1 – Sample and Test Results for Non-personnel Expenses

    Description                                                                         Transactions
    No evidence to show all services received                                                     62
    No bids and justification for sole sourcing                                                   7a
    Control deficiencies (i.e., no support) but goods and
                                                                                                         7
    services received
    Total                                                                             72 (62 + 3a + 7)
a
 These 7 transactions include 4 transactions that were also counted in the above 62 questioned costs
transactions.

These conditions occurred because of a lack of management emphasis at corporate
and center levels to ensure compliance with the FAR, center sub-contractor
agreements, Job Corps’ PRH, and MINACT’s SOP. Specifically, center staff lacked
adequate knowledge of the FAR; and MINACT’s SOP did not require center staff to
obtain the necessary documentation (e.g., detailed invoices, time records) to show
goods and services were actually received for all non-personnel expenses charged to
Job Corps. Additionally, corporate and center oversight did not always include regular
monitoring for compliance with applicable procurement requirements. As such, MINACT
and Excelsior Springs did not previously identify the deficiencies we found during our
audit.

Personnel Expenses Lacked Independent Verifications and Supervisory Reviews

In addition, MINACT lacked independent verifications and supervisory reviews over
personnel transactions, including pay for hours worked and termination payouts. 19 Job
Corps’ PRH requires center operators to establish the internal controls necessary to
ensure the integrity of government funds and properly safeguard assets. 20 We
judgmentally selected and tested 40, or 15.0 percent, of Excelsior Springs’ 267
employees and found regular independent verifications and supervisory reviews were
not being performed for timesheets processed and termination payouts (e.g., hours
worked, leave accrued) for all employees prior to payment. These deficiencies occurred
because MINACT‘s SOP did not require and the center did not have a process in place
to perform these necessary verifications and supervisory reviews. While we did not
identify any inappropriate personnel expenses, these internal control weaknesses
increased the risk that unreasonable or unallowable personnel expenses could be
incurred, not detected, and charged to Job Corps.

In response to our draft report, the Assistant Secretary for ETA concurred with our
recommendations and stated Job Corps will instruct MINACT to (1) improve its
corporate-level controls and monitoring for managing and reporting financial activity;
(2) provide training to appropriate staff; and (3) correct any non-compliance issues and
possible internal control weaknesses in MINACT’s policies pertaining to Federal
19
     Personnel expenses include all payroll related transactions, such as regular pay, overtime, and termination payouts.
20
     Job Corps’ PRH ,Chapter 5.7, R4(a) 2-3.

                                                                                 Performance Audit of MINACT, Inc.
                                                             8                        Report No. 26-10-004-01-370
                                     U. S. Department of Labor – Office of Inspector General 



regulations, contract agreements, and Job Corps requirements. Additionally, Job Corps
will determine the extent of any reimbursements resulting from unsupported questioned
costs identified in our report. See Appendix D for the entire response.

MINACT disagreed with the deficiencies we identified with Excelsior Springs’ non-
personnel expense transactions, including the $203,921 in questioned costs and non-
compliance with the FAR and MINACT’s SOP bid requirements. However, MINACT
stated it will require the completion of timesheets for its professional health services
subcontractors and convene a workshop for related staff to address the documentation
requirements for all procurements.

Concerning questioned costs, the FAR 31.205-33(f) requires details of actual services
performed and time expended. Furthermore, Excelsior Springs’ sub-contracts with two
of the four professional health services sub-contractors also required detailed billings
and time records to support charges. While we acknowledged the center received some
dental and medical services, MINACT could not show it received services for all of the
hours these sub-contractors charged to Job Corps as required by both the FAR and, in
two cases, its professional health services sub-contracts. Regarding the center’s IT
support services transactions, MINACT indicated these expenses were covered under
an existing memorandum of understanding with a public school even though the center
was billed directly by the vendor — not the public school. MINACT was not able to
provide deliverable work products to support the service hours charged or show how
these expenses were covered under the memorandum. MINACT also indicated its
advertising purchases were effective, efficient, and supported by documentation. Of the
7 questioned advertisements paid in CY 2009, 3 were published in April 2010, after our
audit disclosed the center did not receive 3 advertisements; 3 advertisements were not
published in accordance with publication dates revised by the vendor and approved by
the center in April 2010; and 1 advertisement was published for a closed job vacancy.
As a result, we affirm the questioned costs related to 62 transactions totaling $203,921.

With regard to the FAR and MINACT’s SOP bid requirements, Standards for Internal
Control in the Federal Government state all transactions and other significant events
need to be clearly documented, and documentation should be readily available. For 7
transactions totaling $107,481, MINACT did not provide any additional information or
documentation to show best value was received for these purchases as required. See
Appendix E for the entire response.

In addition, MINACT disagreed that controls over Excelsior Springs’ personnel
expenses needed improvement even though the center did not have a process in place
to perform necessary verifications and supervisory reviews. While center operators are
not required to verify and review all personnel expenses, Job Corps’ PRH does require
center operators to establish the necessary internal controls to ensure the integrity of
government funds and properly safeguard assets. MINACT did not provide any
additional information or documentation to cause us to change our conclusions.

Our findings and recommendations remain unchanged.


                                                            Performance Audit of MINACT, Inc.
                                            9                    Report No. 26-10-004-01-370
                                      U. S. Department of Labor – Office of Inspector General 



Objective 2 — Did MINACT ensure compliance with Job Corps requirements for
              managing center safety and health programs?

       MINACT could not provide adequate assurance its safety and health programs
       effectively protected Job Corps students.

       Finding 2 — MINACT did not always ensure compliance with Job Corps
                   requirements for managing center safety and health programs
                   for each of the three areas reviewed — student misconduct,
                   and safety and health inspections and committee meetings.

MINACT’s controls over center safety and health programs did not always ensure
compliance with Job Corps requirements. Specifically, Excelsior Springs did not always
convene FFBs as required for students suspected of Level I and II misconduct
infractions, such as physical assault with intent to cause bodily harm to a student, threat
of assault, fighting, and sexual harassment. Excelsior Springs’ data in Job Corps’ CIS
was also unreliable because incidents involving student misconduct infractions were
incorrectly assessed and reported by center staff. In addition, MINACT was not able to
ensure all required safety and health inspections and committee meetings were
conducted. Excelsior Springs did not conduct 5.8 percent of its weekly inspections, 15
percent of its monthly inspections, 83.3 percent of its quarterly inspections, and 1 of 12
monthly committee meetings.

These deficiencies occurred, in part, because MINACT did not provide sufficient
oversight to ensure Excelsior Springs adhered to corporate and center policies to
address student misconduct, including convening FFBs and conducting required safety
program activities at Excelsior Springs in compliance with Job Corps requirements.
Consequently, MINACT could not demonstrate appropriate disciplinary action (including
termination) was taken and potentially dangerous students may have been allowed to
remain on center. In addition, by not conducting its required inspections and meetings,
Excelsior Springs exposed students and staff to potential safety and health hazards that
could have been identified and abated.

Appropriate Actions Not Always Taken to Address Student Misconduct

MINACT was not able to demonstrate that Excelsior Springs always convened FFBs as
required for students suspected of Level I and II misconduct infractions, such as
physical assault with intent to cause bodily harm to a student, threat of assault, fighting,
and sexual harassment. Some students were allowed to stay on center without
consideration of appropriate disciplinary action, including termination. As a result,
problem students were allowed to stay on center, potentially placing other students and
staff at risk.




                                                             Performance Audit of MINACT, Inc.
                                             10                   Report No. 26-10-004-01-370
                                              U. S. Department of Labor – Office of Inspector General 



Job Corps’ PRH required center operators to conduct FFBs to determine appropriate
center actions for Level I and II infractions as follows:

       •	 Level I Infractions — FFBs must be convened within 3 training days. Examples of
          Level I infractions include drug use, physical assault, and sexual assault.

       •	 Level II Infractions — FFBs must be convened within 5 training days. Examples
          of Level II infractions include sexual harassment, fighting, threat of assault, and
          pattern of inappropriate behavior. 21

We judgmentally selected and tested 107 potential student misconduct incidents (i.e.,
Level I and II infractions) reported in the security logs (53 incidents) and Job Corps’ CIS
(54 incidents) for Excelsior Springs during CY 2009 to determine whether the center
convened required FFBs and took appropriate disciplinary actions, including
termination. We found FFBs were not convened for 12 of the incidents as required by
Job Corps’ PRH. For example, the center did not take appropriate action and convene
FFBs for the following incidents:

       •	 A student physically assaulted another student. Job Corps’ PRH classifies 

          physical assault as a Level I infraction. 


       •	 A student threatened to physically assault two students. Job Corps’ PRH 

          classifies threat of assault with intent to intimidate as a Level II infraction. 


       •	 A student punched a hole in the bathroom wall. Job Corps’ PRH classifies 

          destruction of government or private property as a Level II infraction. 


Our test results are summarized in Table 2 below:

 Table 2: Sample and Test Results for FFBs Not Convened

 Sample Source                       Sample Selected     FFBs Not Convened
 Security Log                                     53                     7
 Reported in CIS                                  54                     5
 Totals                                          107                    12

We also found Excelsior Springs’ data in Job Corps’ CIS for Level I and II infractions
was unreliable. Incidents involving 29 Level II and III infractions were incorrectly
assessed and reported by center staff as higher-level infractions. For example, the
center reported disruptive behavior as a Level II infraction. Job Corps’ PRH lists
disruptive behavior as a Level III infraction. Unreliable student misconduct data may
impact Job Corps and MINACT management decision-making.



21
     Job Corps’ PRH Chapter 3, Exhibit 3-1.

                                                                     Performance Audit of MINACT, Inc.
                                                    11                    Report No. 26-10-004-01-370
                                              U. S. Department of Labor – Office of Inspector General 



These deficiencies occurred because MINACT did not provide the necessary training
and oversight to ensure Excelsior Springs’ staff assessed student misconduct correctly
and convened FFBs when required. For example, an investigation determined that a
pattern of sexual harassment occurred between two students. The sexual harassment
was reported correctly in the CIS as a Level II infraction, but an FFB was not convened.
The incident was later improperly downgraded to a Level III infraction by center staff.
Furthermore, MINACT’s corporate or center oversight did not include regular or periodic
reviews of Job Corps’ CIS data or security logs for Excelsior Springs to determine
whether student misconduct infractions were appropriately assessed and addressed in
accordance with Job Corps requirements.

Consequently, these actions hindered the ability of MINACT and Job Corps to monitor
center safety and ensure student misconduct was handled appropriately, potentially
placing other students and staff at risk.

Safety and Health Inspections Were Not Performed

MINACT controls to ensure all required safety and health inspections and committee
meetings were performed were not effective. Job Corps’ PRH requires centers to
perform and document the following:

     •	 Weekly Inspections of all food service facilities, gymnasiums, exercise 

        equipment, and swimming pools during times of operation. 


     •	 Monthly Inspections of dormitories, vocational shops, academic classrooms,
        health services, administrative offices, warehouses, and other buildings occupied
        by students and staff. 22

     •	 Quarterly Environmental Health Inspections of food service facilities, residential
        facilities, and training facilities. 23

     •	 Monthly safety and health committee meeting to review reported accidents,
        injuries and illnesses; consider actions to prevent recurrence; and promote and
        implement DOL and Job Corps safety and occupational health programs. 24




22
   Job Corps’ PRH, Chapter 5.15.
23
   Job Corps’ PRH, Chapter 5.13-1.
24
   Job Corps’ PRH, Chapter 5, Appendix 505.

                                                                     Performance Audit of MINACT, Inc.
                                                    12                    Report No. 26-10-004-01-370
                                      U. S. Department of Labor – Office of Inspector General 



We found that MINACT did not perform 44, or 17.7 percent, of its 248 required safety
and health inspections as detailed in Table 3 below:

 Table 3: Required Safety and Health Inspections Not Performed

 Job Corps’ PRH                 Number of           Number of                 Number of 

 Requirement                      Required            Required                 Required 

                               Inspections         Inspections          Inspections Not 

                                                    Performed             Performed (%)

 Weekly (52 x 2 inspection              104                 98                         6
	
 areas)                                                                           (5.8%)
	
 Monthly (12 months x 10                120                  102                      18
	
 inspection areas)                                                                 (15%)
	
 Quarterly (4 quarters x 6                24                    4                     20
	
 inspection areas)                                                               (83.3%)
	
 Totals                                 248                  204              44 (17.7%)

By not conducting its required inspections, Excelsior Springs exposed students and staff
to potential safety and health hazards that could have been identified and abated. For
example, the center did not perform monthly safety and health inspections of a building
scheduled for demolition, although areas of this building were still used by both students
and staff during CY 2009. In this building, we found multiple health and safety hazards
such as (1) extensive mold in the storage room used by the culinary arts department;
(2) potential asbestos hazards in a student locker area; (3) multiple tripping hazards in a
high traffic area; and (4) hanging and exposed ceiling tiles in a classroom and
maintenance/storage areas.

The pictures below show mold on the ceiling of the storage area used by the center’s
culinary department (left) and hanging and exposed ceiling tiles in a classroom area
(right).




                                                             Performance Audit of MINACT, Inc.
                                            13                    Report No. 26-10-004-01-370
                                      U. S. Department of Labor – Office of Inspector General 



The following pictures show multiple tripping hazards in a high traffic area used by
students and staff (left) and protruding electrical outlet boxes on a classroom floor
(right).




During the audit, MINACT addressed the concerns related to the classroom area and
moved the classroom to another facility.

A Safety and Health Committee Meeting Was Not Conducted

The center also did not conduct 1 of the 12 monthly safety and health committee
meetings required during CY 2009. 25 MINACT told us that the required meeting was not
held during the month of December because students were on winter break and the
committee requires the participation of students. However, MINACT agreed with the
OIG that the meeting could have been scheduled for earlier in the month of December
when students were still on center.

These conditions occurred because MINACT and center management did not provide
adequate monitoring and supervision to ensure the inspections and meetings were
performed and documented as required. Excelsior Springs’ SOP for safety and health
inspections and committee meetings adequately documented Job Corps requirements.
However, MINACT and center management did not perform reviews to ensure the SOP
were implemented effectively. Consistent safety and health inspections and committee
meetings will increase the center’s ability to identify and correct safety and health
concerns at the earliest opportunity. Without documentation of these activities, MINACT
cannot provide adequate assurance that its centers’ safety and health programs are
working effectively to protect Job Corps students. Safety and health program
weaknesses also impact Job Corps and MINACT’s management decision-making.

In response to our draft report, the Assistant Secretary for ETA concurred with our
recommendations and stated Job Corps will instruct MINACT to revise its current SOP
and policies to ensure corporate oversight and center-level controls are in compliance
with established student misconduct requirements. The revisions will include improving

25
     Ibid.

                                                             Performance Audit of MINACT, Inc.
                                            14                    Report No. 26-10-004-01-370
                                     U. S. Department of Labor – Office of Inspector General 



controls and monitoring for convening FFBs for Level I and II infractions. Job Corps will
also instruct MINACT to periodically validate and document effectiveness of controls, as
well as compliance with Job Corps safety and health program requirements. In addition,
the response stated that Job Corps conducted a monitoring trip of the building
scheduled for demolition and determined that it had been completely evacuated and
was not being utilized by students or staff as of June 24, 2010. See Appendix D for the
entire response.

While MINACT disagreed appropriate actions were not always taken to address serious
student misconduct at Excelsior Springs, MINACT indicated it would provide corporate
training and conduct random audits to assess the adequacy of documentation in
support of any changes that may occur in sanctioning. MINACT did not provide any
additional information or documentation to cause us to change our conclusions.

Regarding required safety and health inspections, MINACT asserted most of the weekly
and monthly inspections not performed were directly associated with the building
scheduled for demolition, which had limited continuing use by the center during CY
2009. MINACT also asserted the areas identified with multiple tripping hazards and
hanging and exposed ceiling tiles were used on a temporary basis. We found 50
percent of the weekly and monthly inspections not performed were associated with
other buildings and areas. Moreover, no length of exposure, however limited or
temporary, validates potentially endangering the safety and health of students and staff.

In addition, MINACT acknowledged certain required quarterly inspections were not
performed and worked to restore quarterly environmental health inspections of all areas
effective April 2010. MINACT indicated it would provide corporate training to ensure
more adequate oversight in the future.

MINACT also acknowledged a meeting should have been held during the month of
December 2009. In response, MINACT will provide corporate training to reemphasize
the importance of monthly meetings, including the months that contain the student
summer and winter breaks. See Appendix E for the entire response.

Our findings and recommendations remain unchanged.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training direct Job
Corps to require MINACT:

1. Improve corporate-level controls and monitoring over all centers to identify and
   correct any non-compliance with applicable Federal regulations, contract
   agreements, Job Corps requirements, and MINACT policies for managing and
   reporting financial activity.




                                                            Performance Audit of MINACT, Inc.
                                           15                    Report No. 26-10-004-01-370
                                        U. S. Department of Labor – Office of Inspector General 



2. Require MINACT to provide the necessary documentation to show Excelsior Springs
   received all of the services for the $203,921 in questioned costs, or reimburse the
   amounts it is not able to support.

3. Improve controls and monitoring over all centers to identify and correct any non-
   compliance with Job Corps student misconduct requirements and periodically test
   those controls to determine effectiveness. The controls and monitoring should
   ensure FFBs are convened.

4. Periodically validate whether the safety and health program at its centers are
   managed in accordance with Job Corps requirements. This includes ensuring all
   safety and health inspections and committee meetings are conducted and
   documented as required.

5. Improve the effectiveness of training and supervisory oversight to staff responsible
   for complying with Job Corps’ safety and health program.

Also, we recommend that the Assistant Secretary require Job Corps to:

6. Determine whether additional unallowable costs were charged at all MINACT
   operated centers without the required approvals and support, and require
   reimbursement as appropriate.

7. Ensure the reliability of Job Corps’ CIS data pertaining to student misconduct
   indicators such as Level I and II infractions and FFBs at all MINACT operated
   centers.

We appreciate the cooperation and courtesies that Job Corps and MINACT personnel
extended to the OIG during this audit. OIG personnel who made major contributions to
this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General for Audit




                                                               Performance Audit of MINACT, Inc.
                                              16                    Report No. 26-10-004-01-370
               U. S. Department of Labor – Office of Inspector General 





Appendices 





                                      Performance Audit of MINACT, Inc.
                     17                    Report No. 26-10-004-01-370
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                Performance Audit of MINACT, Inc.
               18                    Report No. 26-10-004-01-370
                                      U. S. Department of Labor – Office of Inspector General 



                                                                                Appendix A
Background

Job Corps is authorized by Title I-C of the Workforce Investment Act (WIA) of 1998 and
is administered by the Department of Labor, Employment and Training Administration,
Office of Job Corps, under the leadership of the National Director, supported by a
National Office staff and a field network of regional offices.

The purpose of Job Corps is to assist at-promise young women and men, ages 16
through 24, who need and can benefit from a comprehensive program, operated
primarily in the residential setting of a Job Corps Center, to become more responsible,
employable, and productive citizens.

As a national, primarily residential training program, Job Corps' mission is to attract
eligible young adults, teach them the skills they need to become employable and
independent, and place them in meaningful jobs or further education.

Education, training, and support services are provided to students at Job Corps center
campuses located throughout the United States and Puerto Rico. Job Corps Centers
are operated for the DOL through competitive contracting processes, and by other
Federal Agencies through inter-agency agreements.

The WIA legislation authorizing Job Corps requires the Secretary of Labor to provide a
level of review of contractors and service providers over a 3-year period. The Code of
Federal Regulations states all Job Corps centers are to be reviewed over the 3-year
period.

MINACT’s headquarters is located in Jackson, Mississippi. MINACT provides support to
the Job Corps program by overseeing the daily operations of multiple Job Corps centers
around the country. During CY 2009, MINACT operated nine centers under contract
with DOL. The center included in our audit (Excelsior Springs) had a training capacity of
495 students.




                                                             Performance Audit of MINACT, Inc.
                                             19                   Report No. 26-10-004-01-370
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                Performance Audit of MINACT, Inc.
               20                    Report No. 26-10-004-01-370
                                    U. S. Department of Labor – Office of Inspector General 



                                                                              Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our audit objectives were to answer the following questions:

   1. Did MINACT ensure compliance with Job Corps requirements for managing and
      reporting financial activity?

   2. Did MINACT ensure compliance with Job Corps requirements for managing
      center safety and health programs?

Scope

This report reflects the audit work conducted at MINACT’s corporate headquarters at
Jackson, Mississippi and at one MINACT-operated Job Corps center — Excelsior
Springs in Excelsior Springs, Missouri. We conducted our work at MINACT’s corporate
headquarters and Excelsior Springs. We reviewed center financial and safety and
health data from January 1, 2009, through December 31, 2009.

The relationship between the population and the items tested and the kinds and sources
of evidence are fully described in the Methodology section below.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

To accomplish our audit objectives, we obtained an understanding of applicable laws,
regulations and Job Corps policies and procedures. We also obtained an understanding
of MINACT’s processes, policies, and procedures for managing center financial activity
and safety and health programs. We interviewed MINACT’s corporate officials at
MINACT’s corporate headquarters in Jackson, Mississippi and interviewed both
MINACT’s corporate officials and center officials at Excelsior Springs.

At the headquarters offices, we identified and evaluated MINACT’s internal controls
over center financial activity and safety and health programs. We assessed risks related
to financial misstatement and evaluated MINACT’s overall control environment. We
selected one MINACT center location for detailed testing — Excelsior Springs. We
selected this center based on a risk assessment that considered a number of variables,
including center size, prior OIG audit history, and OIG and Job Corps management


                                                           Performance Audit of MINACT, Inc.
                                           21                   Report No. 26-10-004-01-370
                                     U. S. Department of Labor – Office of Inspector General 



concerns. We assessed the reliability of related data for the applicable audit period and
determined the data was sufficiently reliable to accomplish our audit objectives. We
used a non-statistical (i.e., judgmental) sampling approach to select the items tested at
this center. Judgmentally selected items, which cannot be projected to the intended
population(s) were chosen based on a number of factors including known deficiencies
(i.e., related audit concerns identified in prior OIG, DOL and MINACT reports); inquiries
of and information provided by Job Corps, MINACT, and center personnel; and the
nature of certain transactions (e.g., high dollar value, susceptibility to theft or
manipulation, and potential safety and health risks). Our methodology for Excelsior
Springs is described below.

Excelsior Springs

Managing and Reporting Financial Activity

We interviewed key MINACT and Excelsior Springs’ officials and staff, reviewed
applicable policies and procedures, analyzed prior audit and Job Corps monitoring
reports, and performed a walk-through of selected transactions to gain a better
understanding of the center’s system for managing and reporting financial activity. We
identified and evaluated the center’s internal controls over managing and reporting
financial activity, assessed related risks, and evaluated the center’s overall control
environment for managing and reporting financial activity.

For non-personnel expenses, we judgmentally selected and tested 127 transactions
totaling $708,463, or 18.1 percent, of Excelsior Springs’ $3.9 million non-personnel
expenses reported for CY 2009. Using a risk-based approach, we scanned all
transactions for payments to employees and unusual vendors, payments for valuable
and attractive items, payments for unallowable or unusual goods and services, and high
dollar purchases (i.e., single purchases greater than $5,000 or aggregate purchases
greater than $20,000), items susceptible to theft, and judgmentally selected transactions
to test. We reviewed transactions for allowability, reasonableness, compliance with
applicable procurements laws, regulations, and policies, and adequate supporting
documentation.

For personnel expenses, we judgmentally selected and tested personnel transactions
covering 40, or 15.0 percent, of the center’s 267 employees. The center’s CY 2009
personnel expenses totaled $7,037,983. Using a risk-based approach, we judgmentally
sampled payments to personnel authorized to make changes that impact the payroll
system, and payments to personnel for overtime and bonuses, as well as management
personnel to determine whether these expenses were for actual and allowable work
done by valid employees at their authorized rates. This work included tracing the
selected expenses to authorized timesheets, leave, and pay rates.

We also reconciled Excelsior Springs’ reported reimbursable expenses to Job Corps to
the center’s Public Voucher and financial records to ensure compliance with Job Corps’



                                                            Performance Audit of MINACT, Inc.
                                            22                   Report No. 26-10-004-01-370
                                                     U. S. Department of Labor – Office of Inspector General 



PRH. Furthermore, we identified variances from budgeted expenses, and reviewed
significant variances to determine whether the variances were reasonable.

Center Safety and Health

We interviewed key MINACT and Excelsior Springs’ officials and staff, reviewed
applicable policies and procedures, performed walk-throughs, and conducted a physical
review of the center’s facilities to gain a better understanding of the center’s safety and
health program. We also evaluated the results of corporate and DOL regional office
assessments of center safety and health processes, safety and health inspections and
committee meeting minutes, and conducted a physical review of the center to ensure
there were no apparent facility safety and health issues and to ensure that problems
identified by center, corporate, and DOL reviews were corrected. We identified and
evaluated the center’s internal controls over safety and health, assessed related risks,
and evaluated the center’s overall control environment for safety and health.

For student misconduct, we scanned Excelsior Springs’ security log book entries 26 and
student misconduct infractions reported in Job Corps’ CIS for Excelsior Springs for CY
2009 27 , and judgmentally selected 107 incidents (53 security log book entries and 54
infractions reported in CIS) involving potential Level I and II student misconduct
infractions to determine whether the center convened required FFBs and took
appropriate disciplinary actions, including termination.

We reviewed safety and occupational health inspection reports for CY 2009 to
determine whether the inspections were conducted weekly, monthly, and quarterly, as
required, and also whether the deficiencies noted were adequately addressed and
mitigated.

We also reviewed safety and health committee minutes for CY 2009 to determine
whether the committee was convened monthly as required, and also whether
appropriate actions were taken to address and abate any significant accidents, injuries,
illnesses, and unsafe or unhealthful conditions noted.

Criteria

We used the following criteria to perform this audit:

• Code of Federal Regulations,
• FAR,
• Job Corps’ PRH,
• Center operating contracts and sub-contracts and MINACT SOP,
• GAO Government Auditing Standards,
• GAO Standards for Internal Control in the Federal Government, and
• WIA.
26
     We reviewed all security log entries for CY 2009 and judgmentally selected potential Level I and II infractions.
27
     The population of Level I and II infractions recorded in CIS for CY 2009 was 119.

                                                                                   Performance Audit of MINACT, Inc.
                                                              23                        Report No. 26-10-004-01-370
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                Performance Audit of MINACT, Inc.
               24                    Report No. 26-10-004-01-370
                               U. S. Department of Labor – Office of Inspector General 



                                                                         Appendix C
Acronyms and Abbreviations

CIS                          Center Information System

CY                           Calendar Year

DOL                          Department of Labor

Excelsior Springs            Excelsior Springs Job Corps Center

ETA                          Employment and Training Administration

FAR                          Federal Acquisition Regulation

FFB                          Fact Finding Board

GAO                          United States Government Accountability Office

IT                           Information Technology

Job Corps                    Office of Job Corps

MINACT                       MINACT, Incorporated

OIG                          Office of Inspector General

PRH                          Policy and Requirements Handbook

SOP                          Standard Operating Procedures

WIA                          Workforce Investment Act




                                                      Performance Audit of MINACT, Inc.
                                      25                   Report No. 26-10-004-01-370
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                Performance Audit of MINACT, Inc.
               26                    Report No. 26-10-004-01-370
                                 U. S. Department of Labor – Office of Inspector General 



                                                                           Appendix D
ETA’s Response to Draft Report




                                                        Performance Audit of MINACT, Inc.
                                       27                    Report No. 26-10-004-01-370
U. S. Department of Labor – Office of Inspector General 





                       Performance Audit of MINACT, Inc.
      28                    Report No. 26-10-004-01-370
U. S. Department of Labor – Office of Inspector General 





                       Performance Audit of MINACT, Inc.
      29                    Report No. 26-10-004-01-370
U. S. Department of Labor – Office of Inspector General 





                       Performance Audit of MINACT, Inc.
      30                    Report No. 26-10-004-01-370
U. S. Department of Labor – Office of Inspector General 





                       Performance Audit of MINACT, Inc.
      31                    Report No. 26-10-004-01-370
U. S. Department of Labor – Office of Inspector General 





                       Performance Audit of MINACT, Inc.
      32                    Report No. 26-10-004-01-370
U. S. Department of Labor – Office of Inspector General 





                       Performance Audit of MINACT, Inc.
      33                    Report No. 26-10-004-01-370
U. S. Department of Labor – Office of Inspector General 





                       Performance Audit of MINACT, Inc.
      34                    Report No. 26-10-004-01-370
U. S. Department of Labor – Office of Inspector General 





                       Performance Audit of MINACT, Inc.
      35                    Report No. 26-10-004-01-370
U. S. Department of Labor – Office of Inspector General 





                       Performance Audit of MINACT, Inc.
      36                    Report No. 26-10-004-01-370
U. S. Department of Labor – Office of Inspector General 





                       Performance Audit of MINACT, Inc.
      37                    Report No. 26-10-004-01-370
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                Performance Audit of MINACT, Inc.
               38                    Report No. 26-10-004-01-370
                               U. S. Department of Labor – Office of Inspector General 



                                                                         Appendix E
MINACT’s Response to Draft Report




                                                      Performance Audit of MINACT, Inc.
                                     39                    Report No. 26-10-004-01-370
U. S. Department of Labor – Office of Inspector General 





                       Performance Audit of MINACT, Inc.
      40                    Report No. 26-10-004-01-370
U. S. Department of Labor – Office of Inspector General 





                       Performance Audit of MINACT, Inc.
      41                    Report No. 26-10-004-01-370
U. S. Department of Labor – Office of Inspector General 





                       Performance Audit of MINACT, Inc.
      42                    Report No. 26-10-004-01-370
U. S. Department of Labor – Office of Inspector General 





                       Performance Audit of MINACT, Inc.
      43                    Report No. 26-10-004-01-370
U. S. Department of Labor – Office of Inspector General 





                       Performance Audit of MINACT, Inc.
      44                    Report No. 26-10-004-01-370
                                    U. S. Department of Labor – Office of Inspector General 



                                                                              Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), 

Jon K. Ling (Audit Manager), Marisela Sookraj (Auditor-in-Charge), Norma Estrada, 

Rodelito Homoroc, Arijit Bandyopadhyay, and Catherine Christian. 





                                                           Performance Audit of MINACT, Inc.
                                          45                    Report No. 26-10-004-01-370
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT: 


Online: http://www.oig.dol.gov/       hotlineform.htm
Email: hotline@         oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210
